DECLARATION OF SERVICE

HONG TANG
Petitioner
V.

RUTHANNE VISNAUSKAS, et al.
Respondents

As required by Supreme Court Rule 29.5(c), I hereby certify that on August 30,
2021, three (3) copies of the PETITION FOR A WRIT OF CERTIORARI and
APPENDIX were served, via first-class mail, on the following:
David Lawrence III (Counsel for both respondents)
Assistant Sohcitor General
Office of the Attorney General
28 Liberty St., 23rd Floor
New York NY 10005

Pursuant to 28 U.S.C. ยง 1746,1 declare under penalty of perjury that the foregoing
is true and correct.

Executed on August 30, 2021

fiEGSVEBSEP - 2 2021

HONG-TANG.

CERTIFICATE OF COMPLIANCE

HONG TANG
Petitioner
V.

RUTHANNE VISNAUSKAS, et al.
Respondents

Pursuant to Supreme Court orders of July 19, 2021, April 15, 2020 and March 19,
2020, I certify that the petition for a writ of certiorari contains 22 pages and 4,125
words. I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 30, 2021
------ ,

HONG TANG
Pro se Petitioner
1288 Columbus Ave #213
San Francisco, CA 94133
Phone: 916-799-6363
E-mail: mailhongtang@gmail.com

